No. 20-1817

IN THE

Supreme Court of the United States
EZAKI GLICO KABUSHIKI KAISHA, D/B/A/ EZAKI GLICO CO., LTD. &
EZAKI GLICO USA CORP.,
Petitioners,
v.
LOTTE INTERNATIONAL AMERICA CORP. &
LOTTE CONFECTIONARY CO. LTD.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

CERTIFICATE OF SERVICE

I, Mary D. Hallerman, a member of the Bar of this Court, certify that on this
29th day of September, 2021, I caused to be served three copies of the Brief in
Opposition for Respondents Lotte International America Corp. and Lotte
Confectionary Co. Ltd. on the following counsel:
Jessica Lynn Ellsworth
Counsel of Record for Petitioners
Hogan Lovells US, LLP
555 13th Street, N. W.
Washington, DC 20004
(202) 637-5886
jessica.ellsworth@hoganlovells.com

Mary D. Hallerman

